                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




                     EVALUATION REPORT

                FISCAL YEAR 2007 EVALUATION

              NEA’S COMPLIANCE WITH THE
            FEDERAL INFORMATION SECURITY
               MANAGEMENT ACT OF 2002


                               REPORT NO. R-08-01
                                OCTOBER 22, 2007




                           REPORT RELEASE RESTRICTION
This report may not be released to anyone outside of the National Endowment for the Arts (NEA)
without the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                               INTRODUCTION
The Federal Information Security Management Act of 2002 requires an annual evaluation
by the Inspector General on its agency‟s information security programs and practices.
This report is an evaluation of NEA‟s information security program and practices for
protecting its information
technology (IT) infrastructure.


                                BACKGROUND
The Federal Information Security Management Act (FISMA) of 2002 was signed into
law on November 27, 2002. It replaced the Government Information Security Reform
Act (GISRA), which expired in November 2002. The Act requires each federal agency to
develop, document, and implement an agency-wide information security program to
provide information security over the operations and assets of the agency. This includes:

       Periodic risk assessments;
       Policies and procedures that are based on risk assessments;
       Subordinate plans for providing adequate information security for networks,
       facilities, information systems, or groups of information systems, as appropriate;
       Security awareness training to inform employees (including contractors) of the
       security risks associated with their activities and their responsibilities to comply
       with those agency policies and procedures designed to reduce those risks;
       Periodic testing and evaluation of the effectiveness of information security
       policies;
       A process for planning, implementing, evaluating, and documenting remedial
       action to address any deficiencies in the information security policies, procedures,
       and practices, of the agency;
       Procedures for detecting, reporting, and responding to security incidents; and
       Plans and procedures to ensure continuity of operations of the agency‟s
       information systems.


Office of Management and Budget (OMB) Memorandum M-07-19, dated July 25, 2007,
entitled “FY 2007 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management,” updates instructions to Senior
Agency Officials for Privacy, Chief Information Officers and Inspectors General for
reporting their 2007 information to OMB.

The National Institute of Standards and Technology (NIST), which has the responsibility
for developing technical standards and related guidance, has issued numerous
publications including An Introduction to Computer Security: The NIST Handbook. This
publication explains important concepts, cost considerations, and interrelationships of
security controls as well as the benefits of such controls. NIST also has published a

                                            1
Guide for Developing Security Plans for Information Technology Systems. In addition,
guidance is found in the Government Accountability Office publication, Federal
Information System Controls Audit Manual (FISCAM). NIST has also issued Special
Publication 800-37, Guide for the Security Certification and Accreditation of Federal
Information Systems; Special Publication 800-53, Recommended Security Controls for
Federal Information Systems; and FIPS PUB 199, Standards for Security Categorization
of Federal Information and Information Systems.

NEA‟s Office of Information and Technology Management (ITM) maintains and
operates two of three core systems on a local area network (LAN). These are the Grants
Management System (GMS), which contains information on grant applications and the
Automated Panel Bank System (APBS), which contains information on panelists who
review grant applications. NEA has contracted with the Department of Transportation
Enterprise Service Center to host NEA‟s Financial Management System (FMS) through
its Delphi Financial Management System. In addition, NEA operates support systems
including electronic mail, and internet and intranet services.

The Chief Information Officer (CIO) is responsible for developing policies and
procedures to ensure that security is provided over NEA‟s computer and data networks.


                         OBJECTIVE AND SCOPE
The objective of the evaluation was to determine the adequacy of NEA‟s information
technology (IT) security program and practices. This included a review of NEA‟s IT
security policies and procedures, interviews with responsible agency officials managing
the IT systems, and tests on the effectiveness of security controls.


                            PRIOR EVALUATION
The NEA Office of Inspector General issued a report entitled “Fiscal Year 2006
Evaluation of NEA‟s Compliance with the Federal Information Security Act of 2002”
(Report No. R-06-02) dated September 21, 2006. The report had eight recommendations,
all of which have been resolved. It is noted that there was a recommendation that NEA
IT conduct an e-authentication risk assessment as required by OMB. It was subsequently
determined that NEA systems did not meet the necessary requirements for an
e-authentication risk assessment to be conducted. Therefore, the recommendation was
considered to be resolved.



                         EVALUATION RESULTS
Our current evaluation determined that there are several issues that need to be addressed
by NEA‟s Information and Technology Management Division. These include issues
                                            2
related to e-authentication risk assessment, updating the Security and Disaster Recovery
Plans, and implementing procedures related to security awareness training, inventory, and
change management. Details are presented in the following narrative.


Risk Assessment

SeNet International Corporation performed the last risk assessment, the results of which
were issued on August 26, 2005. The review concluded, “The implementation and
management of the security architecture supporting the National Endowment for the Arts
enterprise network appears to require strengthening in order to more effectively restrict
unauthorized internal access to information resources.”

The review cited the following weaknesses at the time of their review:

         Systems were discovered that did not have the latest security patches,
         Systems were discovered running unnecessary or potentially vulnerable services,
         Weak passwords were identified, and
         Open shares were discovered where potentially sensitive information could be
         discovered.

NEA ITM has addressed these weaknesses in its “The Security Audit Action Plan” in
response to the risk assessment. The only vulnerability remaining for corrective action
related to systems that were discovered running unnecessary or potentially vulnerable
services. The solution was to replace the Windows 2000 Servers with Windows 2003
Servers. These new Windows 2003 Servers were installed by December 31, 2005.

                E-Authentication Risk Assessment. OMB Memorandum 04-04 issued
December 16, 2003, directed “agencies to conduct „e-authentication risk assessments‟ on
electronic transactions to ensure that there is a consistent approach across government.”
The guidance applies to “remote authentication of human users of Federal agency IT
systems for the purposes of conducting government business electronically (or e-
government).”

The 2007 FISMA guidance issued by OMB asks Inspectors General to determine whether
such an assessment was conducted. No such assessment was conducted. NEA IT
determined that NEA systems did not meet the necessary requirements to conduct an
e-authentication risk assessment. Since NEA systems are not internet-based, are not
available to users outside of the agencies firewall, and do not require authentication from
users on the outside. As such, we agreed that NEA ITM was not required to perform the
e-authentication risk assessment.




                                            3
NIST Self-Assessment
ITM conducted its 2007 self-assessment using the controls found in the National Institute
of Standards and Technology (NIST) Special Publication 800-53, “Recommended
Security Controls for Federal Information Systems.” The primary issues identified in this
assessment included the lack of written policies regarding remote access monitoring,
portable and mobile devices, media protection, risk assessment, and system and service
acquisition. Weaknesses identified in this self-assessment should be included in NEA‟s
Plans of Action and Milestones (POA&Ms), which is updated quarterly and submitted to
the Office of Management and Budget.


Security Plan
NEA issued its security plan for each of its in-house GMS and APBS systems that
address FISMA and OMB requirements in September 2004. The development of
security plans are an important activity in an agency‟s information security system that
directly supports the security accreditation process required under FISMA and OMB
Circular A-130. Security plans should ensure that adequate security is provided for all
agency information collected, processed, stored, or disseminated in NEA‟s general
support systems and major applications. It is noted that there has been changes to the
NEA Network. The last update for the NEA Network that is included in the Security
Plan is dated June 2007.

        Security Certification and Accreditation. As noted previously, NEA hosts both
the GMS and APBS, both of which were certified and accredited on September 26, 2004.
The FMS is contracted to the Department of Transportation Enterprise Service Center.
The 2005 SeNet Report noted that three major systems were identified and granted the
Authority to Operate in November 2004. In their review of the Certification and
Accreditation (C & A) documentation, they stated, “it appears that the process that was
used to perform the C & A does not meet established best practices or federal guidelines.

As a result, ITM took appropriate action and in March 2006, ITM recertified that that the
Local Area Network (LAN), and all Information Systems (GMS - Grants Management
System, Delphi – Financial Management System, and APBS – Automated Panel Bank
System) have the appropriate safeguards in place and the data processed is secure. NEA
implemented a single site certification program and accreditation program using the
Federal Information Security Act of 2002, Public Law 107-347, OMB Circular A-130,
and NIST 800-37 as the implementation guidance for its development. This accreditation
is valid until March 2009.




                                            4
Disaster Recovery Plan
NEA has documented its disaster recovery plan (July 2002). The recovery plan provides
that:

       NEA will maintain an alternate e-mail address resident on a server outside of the
       NEA facilities to support emergency communications.

       An Emergency Recovery Server will be maintained within the building, but in a
       physical location distant from ITM to facilitate Level One and Level Two
       recoveries. It shall contain current software, updated nightly, that duplicates that
       which is in use by NEA.

       Standby network equipment will be maintained in a location outside of ITM to
       restore operations.

       At the end of every business day, two backup copies of all systems data will be
       taken. One will be stored outside of the building and one will be stored within the
       building, but outside of the Computer Center.

Our prior evaluation included a recommendation that IT update the Disaster Recovery
Plan to include changes in the handling of backup copies of systems data. A supplement
to the Disaster Recovery Plan has been issued to include those changes.


Security Training

ITM had previously documented a security-training plan (August 2002) for ITM staff and
contractors. The purpose of the plan was to ensure that NEA employees with significant
security responsibilities (1) have the most current computer security information and
(2) have an adequate understanding of computer/IT security laws and requirements.

NIST Special Publication 800-50, Building an Information Technology Security
Awareness and Training Program and NIST Special Publication 800-16, Information
Technology Security Training Requirements: A Role- and Performance-Based Model,
provide the standards for security awareness and training. We recommended in our 2005
evaluation that ITM implement security awareness training to all NEA employees as soon
as possible. This training was implemented in December 2005. However, it was noted in
our previous 2006 evaluation that ITM did not develop a system to readily identify those
who have taken or have not taken the training. ITM has since implemented procedures to
document who has taken the training.




                                             5
Security Incidents
NEA has formalized a “Computer Security Incident Policy” (Revised November 2003),
which (1) identifies the type of activity characterized as a computer security incident, and
(2) defines the steps to be taken to report a computer security incident. The policy
applies to all permanent and temporary employees, including contractors who utilize
NEA‟s computer equipment and systems.
It is generally known that security incidents have become more frequent whether they are
caused by viruses, hackers, or software bugs. Appendix III to OMB Circular A-130
states:

       When faced with a security incident, an agency should be able to respond in a
       manner that both protects its own information and helps to protect the information
       of others who might be affected by the incident. To address this concern, agencies
       should establish formal incident response mechanisms. Awareness and training for
       individuals with access to the system should include how to use the system’s incident
       response capability.


Any NEA computer security incidents are handled by ITM‟s Computer Security Incident
Team (CSIT), which consists of two employees from ITM‟s Customer Services Division
and two employees from ITM‟s Plans, Policy and Programs Division. One employee,
who is designated as the CSIT coordinator, serves as the team‟s central resource for
monitoring computer security incidents.

NEA‟s policy states, “Any employee or contractor who has knowledge of a computer
security incident should report the incident to the CSIT Coordinator via e-mail (or phone
if e-mail is not available).”

Our 2003 evaluation recommended that NEA revise its computer incident security policy
to reflect FedCIRC timeframe requirements for security incident reporting. A revised
computer incident policy was issued in November 2003 and established timeframes for
reporting security incidents to FedCirc.

Despite numerous attempts to intrude NEA systems during the past year, there were no
successful incidents referred by employees to NEA ITM officials within the context of
NEA‟s Computer Security Incident Policy.


Access Controls

ITM developed and implemented an “Access Control Policy” in December 2001 that
established procedures for removing terminating employees‟ user IDs and passwords for
the LAN, e-mail and mission critical systems. ITM also developed and implemented
procedures applicable to employees terminating their NEA employment that specifically
note the steps required to clear applicable user IDs and passwords.


                                                6
NIST recommends periodic reviews of user account information for managing user
access. NEA does have controls in place that requires LAN users to change their
passwords every 60 days and ensures that intruders (those who make numerous attempts
to access the LAN) are locked out of the system after four attempts to log in with an
invalid password.

Our 2002 evaluation noted that ITM was not always notified when school interns leave
NEA. These are students who work during the summer or break periods, but are not paid
by NEA. Since NEA does not pay the interns, there was no means to ensure that exit
clearance procedures were followed (such as withholding their final pay). In addition,
the supervisors of these interns were not always informing ITM of their departure
because there was no requirement for such. Thus, these interns could potentially
continue to access and use the e-mail system from an alternate location for unauthorized
purposes. As a result, NEA instituted new sign-out procedures for interns, temporary
contractors and volunteers. However, our 2003 evaluation found that ITM was still not
being informed timely about such individuals. Although ITM has requested departure
dates from the Human Resources Division for these temporary employees, the dates were
not always provided. We recommended that ITM not initiate computer or e-mail access
unless a departure date is provided.

As a result, the “Access Control Policy” was revised in November 2003 to include that
“before computer access can be granted to temporary employees/contractors, the Human
Resources Division must inform ITM of the anticipated end dates for these individuals‟
assignments in order to ensure that their access rights are removed at the appropriate
time.” The August 2005 SeNet report noted that weak passwords were identified and, as
a result, NEA ITM implemented a new stronger password policy, which was formally
issued in March 2006. This password policy continues to be followed.


Physical Controls

NEA appears to have adequate physical controls to protect its IT inventories and supplies.
The facilities are protected by fire alarms and sprinkler systems. Access to NEA‟s space
in the building is controlled by guards who require proper identification for entry.
During nonworking hours, sign-in and sign-out procedures are in effect. The computer
data room has cipher locks to restricted areas and this entire area is always secured and
locked.

If NEA contracts for IT services that requires access to its computer data room, the access
code (via a cipher lock) that is used by the contractor is different from the code used by
NEA ITM employees. In addition, the contractor‟s access code is changed whenever one
of the contractor‟s operators is terminated.




                                            7
Inventory Controls
NEA has an inventory of its hardware and has updated its listing with the last entry as of
September 20, 2007. The inventory lists each item by office, barcode number, serial
number, manufacturer, model number and description, as well as the user. The inventory
is maintained on a perpetual basis and is updated as equipment is added or deleted. It
also indicated the date the inventory was taken and the initials of the person who took the
inventory.


Contractor Security

NEA appears to have imposed adequate security measures on its contractors. All short-
term (data entry) contractors have limited computer access. That is, they do not get a full
menu upon login and are limited on what they can input into the system, which is
restricted by their user name and password. For example, they cannot access or input
data into any systems management function. They also do not have internet or intranet
access. Since the contracts are short-term, users are deleted from the system upon
contract termination.

Computer access for a long-term contractor involved with NEA systems and the help
desk generally is unrestricted. However, the CIO and ITM carefully screen these
contractors and require background checks.


Change Management

Both our 2003 and 2004 evaluations concluded that ITM must develop policies and
procedures related to change management and control for the development and
modification of IT systems. ITM issued a “Change Management Policy/Procedure”
effective December 1, 2004. This policy “describes the responsibilities, policies, and
procedures to be followed by ITM when making changes or recording events to the
National Endowment for the Arts IT infrastructure.” It defines “change” and “event” as
follows:

   Change: to transform, alter, or modify the operating environment or standard operating
   procedures; any modification that could have potential and/or significant impact on the
   stability and reliability of the infrastructure and impacts conducting normal business
   operation by our users and ITM; any interruption in building environments (i.e., electrical
   outages) that may cause disruption to the IT infrastructure.

   Event: any activity outside of the normal operating procedures that could have a potential
   and/or significant impact on the stability and reliability of the infrastructure, i.e. a request to
   keep a system up during a normal shutdown period.

The change management process includes the submission of a change request with
management approval. During our prior evaluation, it was noted that when we requested

                                                   8
a log and/or copies of such requests, there have been none submitted. As a result, a
recommendation was made that IT implement procedures to ensure compliance with the
NEA Change Management Policy. Our current evaluation noted that IT has implemented
such procedures and ITM Change Management Request Forms are now maintained.


Financial Management System

NEA has an agreement with the U.S. Department of Transportation (DOT) to utilize the
Enterprise Service Center‟s Oracle Federal Financials System, Delphi, as their financial
management system. OMB requires that such service organizations to provide client
agencies with an independent report describing system controls. To comply with this
requirement, DOT OIG hired an independent contractor, Clifton Gunderson, LLP, to
conduct a review on the computer controls over the information technology and data
processing environment, as well as the input processing, and output controls built into the
Delphi system.

The independent contractor rendered an opinion on the effectiveness of those controls for
the eight-month period from October 1, 2006 through May 31, 2007. The audit
concluded that “management‟s description of controls presents fairly, in all material
respects, the controls that have been placed in operation as of May 31, 2007. In addition,
controls are suitably designed and were operating effectively on 9 of 10 control
objectives during the period from October 1, 2006, through May 31, 2007. The exception
is logical access controls because management has not completed the move of the Delphi
servers to a more secure environment.”

NEA also uses the Department of Agriculture (USDA) National Finance Center as its
payroll provider. The latest Statement on Auditing Standards Number 70 (SAS 70)
Review of the Department of Agriculture Office of the Chief Financial Officer/National
Finance Center (OCFO/NFC) issued by the USDA OIG was for fiscal year 2006. This
review concluded that the Department of Agriculture Office of the Chief Financial
Officer/National Finance Center‟s “description of controls presented fairly, in all material
respects, the relevant aspects of OCFO/NFC.” Also, in their opinion, “the controls
included and/or referenced in the description, as updated, were suitably designed to
provide reasonable assurance that associated control objectives would be achieved if the
described policies and procedures were complied with satisfactorily and customer
agencies applied the controls specified in the OCFO/NFC description of controls.”

The 2006 USDA report described “weaknesses in OCFO/NFC internal control policies
and procedures that may be relevant to the internal control structure of OCFO/NFC
customer agencies.” The report further stated that “OCFO/NFC reinstituted control
activities that were disrupted after Hurrican Katrina and updated its procedures to address
the control weaknesses” that were identified.




                                             9
The 2007 USDA SAS 70 Report on the National Finance Center was not available at the
time of our evaluation in September 2007. We recommend that NEA ITM provide us
with a copy of the report as soon as it becomes available.


                            EXIT CONFERENCE
An exit conference was held with NEA‟s CIO on October 22, 2007. The CIO generally
concurred with our recommendations and has agreed to initiate corrective actions.




                          RECOMMENDATIONS
We recommend that the NEA Office of Information and Technology Management:

   1. Include corrective actions for weaknesses identified in its IT self-assessment in
      NEA‟s Plans of Action and Milestones (POA&Ms), which is updated quarterly
      and submitted to the Office of Management and Budget.

   2. Provide the Office of Inspector General with a copy of the 2007 Statement on
      Auditing Standards Number 70 (SAS 70) Review of the Department of
      Agriculture National Finance Center.




                                           10
